Department of Health and Human Services
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Commonwealth of Pennsylvania Department of Public Welfare Costs Claimed Under Title IV-A Emergency Assistance
for Children in Youth Development Centers, Youth Forestry Camps, and Castille Contracted Detention Facilities from October
1, 1994 to September 30, 1996," (A-03-99-00594)
August 9, 2000
Complete
Text of Report is available in PDF format (5.5 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
In this final report the OIG estimates that widespread violations of Federal criteria by the Pennsylvania Department of
Public Welfare (DPW) resulted in Pennsylvania being reimbursed at least $51.5 million in Federal funds for unallowable
claims for emergency assistance services under the Title IV-A emergency assistance (EA) program. Of the 200 claims reviewed,
192 violated Federal requirements and 141 of the 192 contained 2 or more violations of Federal requirements. The DPW circumvented
Federal criteria by disregarding such fundamental principles of the EA program as the child's living arrangement prior
to applying for assistance, the role of parents/guardians in the application process, making sure services claimed were
provided, and the 12-month time period in which services could be provided. The EA program was terminated by the Personal
Responsibility and Work Opportunity Reconciliation Act of 1996, which created the Temporary Assistance to Needy Families
block grant. Therefore, we did not make procedural recommendations. We did, however, recommend that DPW refund the $51.5
million to the Federal Government. The DPW generally did not concur with our findings and recommendation.